No. 19-1143
IN THE

'upreme Court of tbe Enitert Otateo
FMC CORPORATION,
Petitioner,
v.
SHOSHONE-BANNOCK TRIBES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,938 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 20, 2020.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

